        Special Inspector General for Afghanistan Reconstruction




SIGAR
        Testimony
        Before the Subcommittee on National Security
        Committee on Oversight and Government Reform
        U.S. House of Representatives


        Lessons Learned from Oversight
        of the U.S. Agency for
        International Development’s
        Efforts in Afghanistan


        Statement of John F. Sopko,
        Special Inspector General
         for Afghanistan Reconstruction
        April 2014
Mr. Chairman, Ranking Member Tierney, and Members of the Subcommittee,

I am pleased to be here today to discuss oversight of the U.S. Agency for International
Development’s (USAID) reconstruction efforts in Afghanistan. Since 2002, USAID has
obligated over $18 billion to help rebuild Afghanistan through a wide range of projects and
programs in areas such as healthcare, education, and agriculture, among others. This effort
has been unprecedented in its cost and scope. It has also provided a unique opportunity to
examine the challenges of undertaking a large-scale reconstruction initiative in an
environment like Afghanistan.

Since the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR)
was established in 2008, it has developed a large body of work focused on USAID’s efforts
in Afghanistan. This work has involved every facet of SIGAR’s organization and has been
communicated through almost 50 audit and inspection reports, 22 quarterly reports to
Congress, and other special publications. Taken individually, these reports provide specific
examples of how various USAID projects were planned, implemented, and overseen. They
also highlight concrete instances of waste, fraud, and abuse, where it has occurred. Taken
as a whole, however, these reports reveal broader lessons about what has worked and what
has not—lessons that can be used to inform future contingency operations and, to the extent
possible, to strengthen and improve the U.S. government’s continued efforts in Afghanistan
throughout the “Transformation Decade” and beyond. In my testimony today, I discuss four
of those lessons.




SIGAR 14-46-TY                                                                            Page 2
Lesson 1: Reconstruction Programs Must Take into Account the Recipient Country’s Ability
to Afford the Costs of Operating and Sustaining Them

In 1988, USAID released a review of U.S. Assistance to Afghanistan between the years 1950
and 1979. 1 This report, conducted by a private firm with which USAID had contracted,
identified a number of lessons learned, based on the U.S. government’s experience in
Afghanistan. Chief among them was that U.S. assistance to Afghanistan had been “over-
ambitious, both as to scale and timing” and that, “in many ways, the program was larger
than could be effectively administered by either the US or Afghan governments.” This
conclusion, although retrospective in its orientation, was prescient. As the work of SIGAR
and others has shown, the size of the U.S. government’s current reconstruction effort in
Afghanistan has placed both a financial and operational burden on the Afghan government
that it simply cannot manage.

As SIGAR has noted on several occasions, the U.S. government has committed more money
to rebuild Afghanistan than it has any other single nation in its history—over $100 billion.
While this figure is noteworthy when compared to other foreign aid investments that the U.S.
has made in its history, it is staggering when considered in the context of Afghanistan’s
economy.

By most estimates, Afghanistan’s domestic annual revenue is only about $2 billion, while its
overall budget is $7.5 billion. This means that, without donor contributions, the Afghan
government will not be able to meet most of its operating expenditures. For example, NATO
has estimated that the cost of sustaining an Afghan National Security Force (ANSF) of
228,500 would be $4.1 billion annually. Therefore, if the Afghan government were to
dedicate all of its domestic revenue toward sustaining the ANSF at its projected levels, it still
could only pay for half of the associated costs. Moreover, all other costs—those required to
operate and maintain infrastructure and programs in the non-military sectors—would have to
come from international donors.



1 “Retrospective Review of US Assistance to Afghanistan: 1950-1979,” Submitted to USAID by Devres, Inc.,

October 31, 1988.



SIGAR 14-46-TY                                                                                        Page 3
While security is a significant driver of costs and one that often receives the most attention,
development in Afghanistan is also a major contributor to that country’s growing fiscal gap.
Each new development project that the U.S. and other international donors fund increases
overall operation and maintenance costs, adding pressure to Afghanistan’s operating
budget. Indeed, Afghanistan’s fiscal sustainability ratio—domestic revenues versus operating
expenses—remains one of the lowest in the world. Recent World Bank calculations show that
Afghanistan’s fiscal sustainability ratio has declined, from 66.5 percent in fiscal year 2011
to 60.1 percent in fiscal year 2012. And this ratio is projected to drop even lower in coming
years. 2 As a result, Afghanistan’s ability to pay for discretionary services will become
increasingly limited, and its progression toward self reliance will be further delayed.

USAID has acknowledged this reality. For example, a 2011 report on Afghanistan’s fiscal
sustainability, prepared for USAID by Chemonics International, Inc., found that, even under
conservative assumptions, the size of operation and maintenance expenditures associated
with all external development spending is almost equal to Afghanistan’s current operating
budget. 3 USAID officials have also told SIGAR they are concerned that the United States and
the Afghan government could be left with “stranded assets” if project implementation and
follow-up are not handled correctly. SIGAR has found, however, that USAID has not
consistently translated this understanding into a realistic approach for designing and
implementing projects.

          Limited Sustainability of Energy Sector Programs

The problem of planning and implementing programs without considering the cost and
feasibility of sustaining them is, perhaps, no more strikingly evident than in the U.S.
government’s efforts to develop Afghanistan’s energy sector. As highlighted in the
Afghanistan National Development Strategy and other key planning documents, the United
States, other international donors, and the Afghan government agree that improving the
energy sector is essential to Afghanistan’s economic progress and long-term viability.


2   World Bank, Afghanistan Economic Update, October 2013.
3 Afghanistan Fiscal Sustainability Model Summary Report, produced for USAID by Chemonics International,
Inc., September 2011.



SIGAR 14-46-TY                                                                                       Page 4
However, the energy sector remains largely undeveloped. According to the World Bank,
Afghanistan has one of the lowest rates of electric-service connection in the world, with only
28 percent of its population connected to the power grid. Of those who are connected, an
estimated 77 percent live in urban areas. 4

In January 2010, SIGAR issued an audit report on USAID’s efforts to build the Kabul Power
Plant, a 105 megawatt power plant on the outskirts of Kabul city.5 The decision to build the
plant had been made jointly by the U.S. and Afghan governments and, in 2007, the Afghan
government had committed to, among other things, paying for the fuel required to operate
the plant and commercializing the operations of Afghanistan’s electricity revenues to cover
fuel costs and operation and maintenance expenses of the plant within one year of its
creation.

In June 2008, the USAID Mission Director in Afghanistan certified to Congress that USAID
had concluded the Afghan government was capable of meeting these commitments. 6
However, it soon became apparent that this conclusion was highly unrealistic. One key basis
for USAID’s certification was the expectation that the Afghan government would be able to
commercialize its utility sector. By 2010, though, the utility sector for the Kabul area was
projected to suffer an annual operating loss of $250 million. Similarly, although the Afghan
government had committed to paying fuel costs for the plant, the Afghan Minister of the
Economy requested in 2009 that USAID reserve $28 million in funds originally set aside for
its contribution to the Afghanistan Reconstruction Trust Fund, in part to cover fuel costs at
the Kabul Power Plant and other power plants in southern Afghanistan.

One contributing factor behind the high costs associated with operating and maintaining the
Kabul Power Plant was the Afghan and U.S. governments’ joint decision to build a dual fuel
plant—one capable of operating on diesel or heavy fuel. According to staff of the contractor

4   World Bank, “Afghanistan Partnership: Country Program Snapshot,” 8/29/2013.
5 SIGAR Audit 10-6, Contract Delays Led to Cost Overruns for the Kabul Power Plant and Sustainability

Remains a Key Challenge, January 2010.
6This certification was submitted in compliance with Section 611(e) of the Foreign Assistance Act of 1961,
which provides that whenever certain types of funds are proposed to be used for a capital assistance project
exceeding $1 million, the USAID Mission Director must certify that the country has the capability to effectively
maintain and utilize the project.



SIGAR 14-46-TY                                                                                              Page 5
hired by USAID to build the plant, a senior Afghan government official had advocated for a
dual fuel plant since heavy fuel oil is considerably cheaper than diesel fuel and would
increase the chances that the Afghan government could operate the plant with its own
resources. The USAID contractor’s staff noted, however, that the full costs of using heavy
fuel oil include additional infrastructure investments, handling costs, and operation and
maintenance expenses associated with greater wear and tear placed on the generators.
Moreover, heavy fuel oil is not available in Afghanistan and would require the creation of a
heavy fuel import and distribution network solely for the Kabul Power Plant. The contractor
estimated that up to $4 million could be saved if the plant were converted to a diesel-only
plant, but USAID officials declined to pursue this option due to political sensitivities
surrounding the issue and prior commitments they had made to the Afghan government.

Last year, SIGAR reexamined USAID’s efforts to strengthen the electricity sector in Kabul. In
an audit report focused on USAID assistance to support commercialization of the Kabul
regional department of Da Afghanistan Breshna Sherkat (DABS), Afghanistan’s national
power utility, SIGAR found that USAID’s assistance had helped DABS-Kabul reduce its losses
and increase revenues, a positive development. 7 However, SIGAR also found that DABS-
Kabul—the same power utility that USAID had expected in 2008 to produce enough revenue
to cover operation and maintenance costs of the Kabul Power Plant—was not self-sufficient
and, without an Afghan government subsidy, scheduled to expire in March 2014, would
operate at a loss unless it significantly improved its revenue generation capability.

Troublingly, DABS-Kabul is well ahead of other DABS regional departments, including that in
Kandahar, which the U.S. government expects to cover the costs of a number of critical
energy sector projects funded by the U.S. and other international donors in that region. In
July 2012, SIGAR issued a report on the Afghanistan Infrastructure Fund, which provides
funding for large-scale infrastructure projects jointly managed and implemented by USAID
and the U.S. Forces-Afghanistan (USFOR-A). 8 Many of these projects are in the energy sector


7SIGAR Audit 13-7, Afghanistan’s National Power Utility: Commercialization Efforts Challenged by Expiring
Subsidy and Poor USFOR-A and USAID Project Management, April 2013.
8SIGAR Audit 12-12, Fiscal Year 2011 Afghanistan Infrastructure Fund Projects Are behind Schedule and Lack
Adequate Sustainment Plans, July 2012.



SIGAR 14-46-TY                                                                                          Page 6
and include such significant initiatives as the Kandahar Bridging Solution, which provides
fuel, operation, and maintenance for all Department of Defense and USAID-procured
generators in Kandahar, and improvements to the Northeast and Southeast Power Systems,
two high voltage transmission networks. SIGAR found that, although USAID and USF0R-A
prepared sustainment plans for these projects, as required, the plans did not include any
analysis of the costs of sustaining them. Moreover, the likelihood that the Afghan entities
charged with financing these projects can afford them is questionable. For instance, DABS-
Kandahar, which is responsible for sustainment of the Southeast Power System and,
ultimately, the operation of U.S. government-procured generators in Kandahar, has limited
capability to bill customers, collect revenues, and maintain its infrastructure. As SIGAR noted
in this July 2012 report, estimates at the time called for the U.S. government to support the
Kandahar Bridging Solution through calendar year 2012, when either DABS would take over
fuel procurement or other power sources would come online. Not surprisingly, those
estimates were overly optimistic, and U.S. funding for the Kandahar Bridging Solution has
continued.

During my most recent trip to Afghanistan, a senior U.S. military official told me the fuel
provided through the Kandahar Bridging Solution will start declining this year and end by
December. Afghan officials also told me that if the U.S. military stops providing the fuel,
DABS will probably not have the financial resources necessary to purchase the fuel needed
to maintain the power provided by the generators funded through the Afghanistan
Infrastructure Fund. In other words, unless the U.S. government or another international
donor provides more fuel to DABS, thousands of homes and businesses in Kandahar will no
longer have access to power beginning in early 2015, even assuming the most optimistic
estimates for the time needed to complete the Kajaki Dam and other key electrical grid
projects designed to connect Kandahar to the country’s larger electrical grid.

USAID and DABS officials in Kandahar are well aware of this potential problem. To help
offset the gap in power generation, they have developed a “bridging solution to the bridging
solution.” Under their draft proposal, DABS will obtain power through a new solar power
plant in eastern Kandahar and a hydro-electric turbine at Dahla Dam. Although I commend
USAID and DABS for trying to develop a solution to this serious challenge, I have concerns


SIGAR 14-46-TY                                                                                Page 7
about the ability of USAID and the Afghan government to jointly develop, undertake, and
complete two new large-scale infrastructure projects before the end of this year.

        Limited Sustainability of Health Sector Programs

Over-ambitious expectations of the Afghan government’s ability to afford development
projects have not been limited to the energy sector. In April of last year, SIGAR reported that
USAID built two hospitals for the Afghan Ministry of Public Health (MOPH) that the ministry
would likely not be able to afford. 9 Specifically, SIGAR found that the estimated annual
operation and maintenance costs of the two new hospitals could be over five times more than
the annual operating costs for the hospitals they were replacing. For example, while the old
Gardez provincial hospital had operating costs of approximately $611,000, including costs
for operation and maintenance, salaries, and supplies, the International Organization for
Migration, which received a USAID cooperative agreement to build the hospital,
estimated that operation and maintenance costs alone for the new Gardez hospital would
exceed $1.1 million annually. A USAID-contracted engineering firm, which conducted a study
of projected operating costs for the new facilities, estimated that annual operation and
maintenance costs for Gardez hospital would be even higher—as much as $2.1 million. And
USAID estimated higher fuel costs for the new hospital, ranging from $1.6 million to $3.2
million annually. Similarly, the old hospital in Khair Khot district had total operating costs of
about $98,000, including costs for operation and maintenance, salaries, and benefits, but
USAID estimated annual operating costs for the new facility of more than $587,000.

Despite these projections, neither USAID nor the Afghan government allocated funds to
cover these additional costs. And, although the USAID Mission Director in Kabul had certified
in 2007 that the Afghan government would be capable of effectively maintaining and using
the hospitals, USAID could not provide SIGAR any documentation to indicate that its review
and approval of the design plans for the two hospitals took into account the higher operating
costs estimated for the new facilities or the Afghan government’s financial capability to
maintain them once completed. The problems with these two hospitals are indicative of


9SIGAR Audit 13-9, Health Services in Afghanistan: Two New USAID Funded Hospitals May Not Be Sustainable
and Existing Hospitals Are Facing Shortages in Some Key Medical Positions, April 2013.



SIGAR 14-46-TY                                                                                     Page 8
larger problems with USAID’s efforts to build a sustainable health sector. In a September
2011 report on USAID’s health services program, 10 the USAID Office of Inspector General
(OIG) reported that sustainability has emerged as a risk to USAID investments in
Afghanistan's health sector and that about 94 percent of the Afghan Government's
expenditures on health care programs are donor supported.

        Other Examples of Sustainability Concerns in Reconstruction Programs

USAID OIG has identified other instances in which USAID has implemented projects or built
infrastructure without articulating a clear plan for ensuring that the Afghan government can
sustain them. In a June 2007 report on Afghanistan’s urban water and sanitation program, 11
for instance, USAID OIG reported that USAID/Afghanistan’s overall objective underlying this
program was to develop sustainable supplies of suitable quality water for certain areas of
Afghanistan. However, during project implementation USAID/Afghanistan did not take
appropriate measures to ensure financial and operational sustainability of the constructed
water systems beyond the project completion date. As a result, USAID OIG concluded that the
constructed water distribution systems could have significant short and long-term financial
and operational problems, ultimately impacting the supply of water to the intended
populations of Afghanistan. 12

In a December 2008 report on Afghanistan’s higher education project,13 USAID OIG reported
that, although sustainability was a core element of USAID program design, professional
development centers constructed under the program would not be self-sustaining because
the program design did not include an exit strategy that identified ways to keep the centers
operating after the project ended.



10USAID OIG, Audit of USAID/Afghanistan’s On-Budget Funding Assistance to the MOPH in Support of the
Partnership Contracts for Health Services Program, Audit Report No. F-306-11-004.
11 USAID OIG, Audit of USAID/Afghanistan’s Urban Water and Sanitation Program, Audit Report No. 5-306-07-

006-P, June 2007.
12Next month, SIGAR will release an audit report broadly assessing USAID’s efforts to help Afghanistan
develop a sustainable water sector.
13 USAID OIG Audit of USAID/Afghanistan’s Higher Education Project, Audit Report No. 5-306-09-002-P,

December 2008.



SIGAR 14-46-TY                                                                                           Page 9
Failure to consistently and adequately plan for the Afghans to sustain reconstruction
projects has not been USAID’s alone. In January 2011, SIGAR released an audit report on
the Department of Defense’s Commander’s Emergency Response Program (CERP) in
Laghman Province. 14 SIGAR found that nine asphalt roads, which accounted for the vast
majority of CERP funds spent in that province, were at risk for waste because they were
approved without adequate assurance that the Afghan government had the resources to
maintain them. According to officials on Laghman Province’s Provincial Reconstruction
Team, the Afghan Directors of Public Works and Rural Rehabilitation and Development did
not have the resources to maintain roads, particularly asphalt roads, which require more
resources and equipment to maintain than dirt roads.

Whether it be the energy sector or the health sector or any other, the pitfalls of placing
unreasonable expectations on the Afghan government regarding its ability to afford the costs
of operating and maintaining development projects are clear. Among them are cost
overruns, delays, and waste of reconstruction funds, to name a few. Perhaps most
significant, though, is the possibility that the Afghan public and the Afghan government will
lose confidence that their key partner in the reconstruction effort, the U.S. government, has
their best interest at heart.

Lesson Two: Reconstruction of a Conflict-Ridden State Is Inherently Risky and That Risk
Must Be Properly Mitigated

As one of the world’s most impoverished, insecure, and corrupt countries, Afghanistan
presents remarkable challenges to those committed to helping it address its very serious
problems. USAID and other donors must not only worry about the safety of all those who
work in Afghanistan on their behalf; they must also take every possible step to safeguard the
funds their governments have entrusted them with spending in Afghanistan from waste,
fraud, and abuse.




14SIGAR Audit 11-07, Commander’s Emergency Response Program in Laghman Province Provided Some
Benefits, but Oversight Weaknesses and Sustainment Concerns Led to Questionable Outcomes and Potential
Waste, January 2011.



SIGAR 14-46-TY                                                                                   Page 10
Corruption poses the most severe threat to the integrity of U.S. government reconstruction
aid to Afghanistan. And, as the U.S. military noted in a recent study it published, “corruption
directly threatens the viability and legitimacy of the Afghan state.” 15 Afghans themselves
agree. In a number of internationally recognized surveys, Afghans identify corruption as one
of the most serious challenges facing their country. In a 2013 survey conducted by the
International Security Assistance Force, for instance, 80 percent of Afghans described
corruption as a major problem, and 65 percent said it was worse than a year before.
Integrity Watch Afghanistan, a nongovernmental organization committed to improving
governance, has reported that about one in every seven Afghans, or 15 percent, paid at
least one bribe in 2012. 16

One of SIGAR’s earliest reports related to safeguarding reconstruction funds was an audit of
USAID’s efforts to safeguard funds provided for salary support to Afghan government
employees and technical advisors. 17 SIGAR found that, although USAID had provided salary
support to Afghanistan since at least 2005, it did not begin collecting information on that
support until 2008. Moreover, it was only through the process of compiling an inventory of
salary support it had funded that it discovered it had been violating its own policy.
Specifically, USAID had supplemented the salaries of Afghan ministers and senior
presidential advisors, even though its policy prohibited supplementing policy-making officials’
salaries under any circumstances. 18 SIGAR also found that, although USAID had conducted
an assessment of the Afghan government’s financial management capabilities, it had not
conducted similar assessments of the human resources and payroll systems used
to implement U.S. salary support to determine if necessary internal controls were in place to
protect salary payments from mismanagement, waste, or misuse. SIGAR’s own analysis of
these systems found they had a number of significant weaknesses, such as incomplete

15 Joint Coalition Operational Analysis (JCOA), a division of Joint Staff J-7, Operationalizing Counter/Anti-

corruption Study, 2/28/2014.
16   Integrity Watch, “National Corruption Surveys,” www.iwaweb.org.
17 SIGAR Audit 11-05, Actions Needed to Mitigate Inconsistencies in and Lack of Safeguard over U.S. Salary

Support to Afghan Government Employees and Technical Advisors, October 2010.
18 See USAID Automated Directives System 201.3.11.10, “Policy Guidance on Criteria for Payment of Salary
Supplements for Host Government Employees” [Cable 88 State 119780, April 1988]. After discovering these
violations, successive USAID Administrators twice waived the policy to allow for continued salary support to the
Office of the President.



SIGAR 14-46-TY                                                                                                  Page 11
implementation of an electronic payroll system and an inability to detect multiple
supplements paid to single recipients.

In SIGAR’s opinion, failing to adequately assess the internal controls within Afghan ministries
responsible for handling U.S. salary support payments assumed an unacceptable level of risk.
And this problem was not isolated to the issue of salary support. In July 2008, USAID
and the MOPH signed an implementation letter establishing the Partnership Contracts for
Health (PCH) program—a five-year program to provide funding to the ministry for the delivery
of health services throughout Afghanistan. USAID had conducted two assessments of the
ministry prior to establishment of the PCH program. The first concluded that the ministry’s
operations were adequate for the purposes of accounting for and managing USAID funds
provided directly to the ministry. The second found that the ministry had adequate
experience and procurement capabilities to handle procurements funded under USAID host-
country procurement procedures. However, in November 2010, USAID OIG reported that
these pre-award assessments—which USAID used to certify the ministry’s ability to manage
the $236 million PCH program—were inadequate and did not provide reasonable assurance
of detecting significant vulnerabilities. 19 Indeed, SIGAR’s own review of these assessments
found that they consisted primarily of observations, walk throughs, and documentation
reviews and that USAID conducted little testing of internal controls. 20

When SIGAR examined USAID’s management of this program in 2013, it found that, despite
USAID OIG’s 2010 findings, USAID had not reassessed operations within the ministry to
determine whether funds provided under the PCH program were at risk. Moreover, although
a later, more thorough assessment of the ministry was conducted through a USAID contract
with Ernst & Young, and that assessment found significant internal control weaknesses at
the ministry, USAID officials told SIGAR they had no obligation to address the deficiencies




19USAID OIG, Review of USAID/Afghanistan’s Ministerial Assessment Process: F-306-11-001-s, November 6,
2010.
20 SIGAR Audit 13-17, Health Services in Afghanistan: USAID Continues Providing Millions of Dollars to the

Ministry of Public Health despite the Risk of Misuse of Funds, September 2013.



SIGAR 14-46-TY                                                                                          Page 12
identified or to verify any corrective actions that the ministry may have implemented for the
ongoing PCH program. 21

USAID cited two main arguments for this position. First, the PCH program was executed
through what USAID calls a host-country contract. And, according to certain USAID officials,
that type of contracting did not constitute “direct government-to-government assistance,”
thereby negating any need to address the findings of the Ernst & Young assessment, which
was conducted solely as part of a different program that fell explicitly under the rubric of
direct bilateral assistance. Second, USAID stated that the weaknesses identified through the
Ernst & Young assessment did not matter because USAID had established a separate unit,
the Grants Contracts and Management Unit (GCMU), through which all PCH funds would
flow—separate from the rest of the ministry and better able to protect USAID’s funds. In its
comments on SIGAR’s draft audit report, USAID stated plainly, “It is in part because of the
GCMU that the [ministry] and USAID have had such a strong success with the PCH program
over the past several years and confidence in the management of the funds for the PCH
program.”

These arguments were troubling for a number of reasons but, particularly, because SIGAR’s
own investigative work has found that the GCMU has done little to protect USAID’s funds
from waste and mismanagement. While details of SIGAR’s ongoing criminal investigation
cannot be shared at this point, it is safe to say that, based on information SIGAR’s auditors
and investigators have collected and corroborated, the GCMU constitutes, in many ways, a
single point of failure when it comes to the protection of USAID funds for the PCH program.

To provide direct assistance funds to MOPH for the PCH program, USAID depends heavily on
cooperation and information from MOPH’s GCMU. As shown in figure 1, MOPH-GCMU
submits an advance payment request to USAID every 45 days to cover the estimated cost of
the PCH program. This estimate is based on requests and supporting information provided
to MOPH-GCMU by the nongovernmental organizations providing goods and services under
the program. USAID reviews MOPH-GCMU’s payment request, approves disbursement, and
initiates payment through the U.S. Disbursement Office. The U.S. Disbursement Office then

21   See SIGAR Audit 13-17, p.4, for a more complete discussion of this matter.



SIGAR 14-46-TY                                                                            Page 13
sends funds to an account at Afghanistan’s central bank, Da Afghanistan Bank, jointly held
by the Ministry of Finance and MOPH for the PCH program. Using information provided by
MOPH-GCMU, the Ministry of Finance disburses funds to individual nongovernmental
organizations to cover their anticipated expenses for goods and services.


Figure 1 - MOPH-PCH Payment Process




Source: SIGAR analysis of interviews and documentation.


This system presents a number of vulnerabilities.

    •   First, although the nongovernmental organizations implementing PCH submit
        invoices and other supporting documentation to MOPH-GCMU, MOPH-GCMU does
        not, as Ernst &Young found in its assessment of MOPH, have strong monitoring
        capabilities. Notably, Ernst & Young found that internal audit was a critical area


SIGAR 14-46-TY                                                                               Page 14
        within MOPH that needed improvement. Moreover, there is a risk that
        nongovernmental organizations and individuals within MOPH-GCMU could collude to
        inflate the estimated costs of the program.
    •   Second, MOPH-GCMU does not have to provide any supporting documentation to
        USAID. Therefore, there is nothing to prevent MOPH-GCMU from submitting payment
        requests to USAID for more than is actually needed for the program.
    •   Third, the Ministry of Finance releases funds to the nongovernmental organizations
        based on information provided to it by MOPH-GCMU. Again, there is no control
        preventing MOPH-GCMU from falsifying the information it provides to the Ministry of
        Finance regarding the amount of funding that each nongovernmental organization
        should receive.

USAID has, however, made substantial progress since the days of its salary support program
and, even, since the PCH program. Most notably, USAID has strengthened its efforts to
assess the capacity of a number of Afghan ministries to manage U.S. direct assistance funds.
As SIGAR reported earlier this year, USAID contracted with both Ernst & Young and KPMG to
conduct thorough public financial management assessments of 16 Afghan ministries. 22
These assessments were a significant improvement over the earlier, more limited
assessments that USAID had conducted and that USAID OIG had criticized in its
2010 report. For example, SIGAR found that the contracted firms not only identified the
internal controls in place at each of the ministries, but tested these internal controls, as
well. Moreover, USAID conducted an additional internal risk review of seven Afghan
ministries in an effort to better understand the risks associated with using their systems to
manage USAID’s direct assistance funds.

Unfortunately, USAID’s progress in assessing the risks associated with awarding funds
directly to the Afghan ministries has not been matched by an equally robust strategy to
ensure the Afghan government mitigates those risks. As noted in SIGAR’s recent report on the
ministerial assessments, Ernst & Young and KPMG concluded that all of the 16 ministries
assessed were unable to manage and account for funds unless they implemented

22 SIGAR 14-32-AR, Direct Assistance: USAID Has Taken Positive Action to Assess Afghan Ministries’ Ability to

Manage Donor Funds, but Concerns Remain, January 2014.



SIGAR 14-46-TY                                                                                          Page 15
specific recommendations outlined in the assessments. Similarly, USAID found, in each of its
seven internal risk reviews, that the ministry was unable to manage direct assistance funds
without a risk mitigation strategy and that the mission would not award direct assistance to
the ministry “under normal circumstances.” Issues uncovered through the risk reviews
include such serious problems as internal control environments inadequate to safeguard
assets against theft and unauthorized use; failure to fully comply with Afghan procurement
laws and regulations; and limited capacity to encourage and enforce code of government
ethics.

Some of USAID/Afghanistan’s risk reviews also discussed each ministry’s ability and
willingness to combat corruption. Specifically, USAID/Afghanistan found that DABS and the
Ministries of Agriculture, Irrigation, and Livestock; Communication and Information
Technology; Education; Mines and Petroleum; and Public Health had control environments
that were “not adequate to mitigate risk of corruption.” Of those ministries,
USAID/Afghanistan only identified DABS as demonstrating, “to a certain degree, the will to
address concerns that could lead to corrupt acts.” Although USAID formulated 333
mitigating measures in total to address the serious risks identified within the seven
ministries, it only required the ministries to implement 24 of them before they received
direct assistance funds.

In response to SIGAR’s report on the ministerial assessments, USAID noted that it has taken
a number of additional safeguards to protect direct assistance funds from waste, fraud, and
abuse. For example, unlike its arrangement with MOPH for the PCH program, it now provides
funds to ministries on a reimbursement basis for specific projects using separate, non-
interest bearing bank accounts to which it has viewing access to provide the funds—a
practice that USAID sometimes refers to as “projectizing” the money. These steps are
important and, in many ways, represent a best practice. Indeed, as SIGAR will report next
quarter, USAID has done a better job of protecting direct assistance funds than other U.S.
agencies, particularly the Department of Defense. 23



23 SIGAR is currently conducting an audit of the processes USAID and the Departments of State and Defense

use to provide direct assistance funds to Afghanistan and the extent to which these agencies implement



SIGAR 14-46-TY                                                                                      Page 16
However, it is important to note that these safeguards are primarily external measures and,
as such, do not directly address the underlying problems within the ministries identified
through the risk reviews. In other words, they do little to build ministries’ organic capabilities
to manage donor funds—one of the primary purposes of providing direct assistance to the
Afghan government. To illustrate, the risk mitigation measures included in USAID’s risk review
of the Ministry of Agriculture, Irrigation, and Livestock identified several concrete actions that
the ministry could take to address its internal problems. These actions included, among
others, “define and restrict systems access to staff according to their roles and functions,”
“develop a policy for accounting for revenue,” and “verify that adequate
reference checks have been made on every prospective employee and properly
documented.” None of USAID’s external measures—whether it be creation of separate bank
accounts or distribution of funds on a reimbursement basis—would require the ministry to
implement these basic and important steps.

Moreover, the effectiveness of USAID’s external risk mitigation measures may be limited by
ongoing problems within the ministries. For example, although USAID has developed a
written monitoring and evaluation plan specific to its direct assistance program with the
MOPH—as it has with a number of other ministries—USAID’s risk review of that ministry
found there was a serious risk of the ministry “concealing vital monitoring and evaluation
information.” In SIGAR’s opinion, failing to address the underlying problems within the
ministries constitutes, once again, an unacceptable assumption of risk.

Lesson Three: Oversight Is a Critical Element of Reconstruction

Another lesson learned is that an essential element of mitigating risk is the implementation
of robust oversight. Last month, SIGAR hosted a symposium on managing and overseeing
programs in contingency environments. This event, attended by a host of nongovernmental,
think tank, and government officials, including USAID officials, highlighted the specific
challenges of remote monitoring—assessing how projects are proceeding in areas that U.S.




certain safeguards to protect those funds from waste, fraud, and abuse. A report on that audit is expected next
quarter.



SIGAR 14-46-TY                                                                                          Page 17
government officials typically cannot visit. SIGAR’s work has shown that USAID’s adoption of
oversight techniques has been impressive in some cases and less so in others.

For example, in April 2012, SIGAR reported on one of USAID’s flagship stabilization
programs, the Local Governance and Community Development Program, designed to
contribute to the creation of a stable environment for medium- and long-term political,
economic, and social development. 24 SIGAR found that because USAID personnel were
limited in their ability to visit sites where the program was being implemented, even as early
as 2003, USAID had authorized the use of alternative methods to keep mission personnel
safe while satisfying the need to visit project sites and meet with project beneficiaries to
assess project implementation. These methods included the collection of photographic
evidence; the use of local and/or third-party monitoring; engagement with other U.S.
government agencies, such as regional security officers or the U.S. military; the use of other
technology for consultation or oversight; and cooperation with other donors.

SIGAR found that USAID’s contracting personnel did a good job of employing these
alternative oversight methods. However, SIGAR also found that USAID contracting personnel
were hampered in their oversight because neither the contractors’ task orders for the
program nor the overall contract under which the task orders were issued required the
contractor to submit documentation in support of invoices.

Moreover, SIGAR found that USAID delayed arranging a financial audit of the Local
Governance and Community Development Program. This type of audit is intended to be a
key control to help ensure that prices paid by the government for needed goods and
services are fair and reasonable and that contractors are charging the government in
accordance with applicable laws, the Federal Acquisition Regulation, Cost Accounting
Standards, and contract terms. Indeed, in a larger audit of USAID’s compliance with
requirements for financial audits, SIGAR found a significant backlog of incurred cost audits




24SIGAR Audit 12-08, USAID Spent Almost $400 Million on an Afghan Stabilization Project despite Uncertain
Results, but Has Taken Steps to Better Assess Similar Efforts, April 2012.



SIGAR 14-46-TY                                                                                      Page 18
of USAID projects. 25 Specifically, SIGAR identified nearly $1.1 billion disbursed by USAID
since 2003 for reconstruction projects in Afghanistan that had not been audited. SIGAR also
found that, although as much as half of the funds that USAID provided for contracts, grants,
and cooperative agreements may flow down to sub-recipients, USAID lacked transparency
with regard to whether financial audits of sub-awards were being conducted, as required.

USAID OIG has also had mixed reviews of USAID’s oversight of its programs in Afghanistan
and elsewhere. For example, in September 2012, USAID OIG released a report on USAID’s
monitoring and evaluation system in Afghanistan. 26 This review found that USAID’s
Afghanistan mission had implemented several elements of an effective monitoring and
evaluation system. At the same time, however, USAID OIG reported that the mission did not
have a current mission order addressing monitoring either generally or for on-site
monitoring, in particular. Further, no mission order detailed the roles and responsibilities of
mission staff members in monitoring on-budget assistance.

Lessons can also be learned from USAID’s experience in a similar environment—Pakistan.
There, USAID OIG found that USAID had not taken full advantage of a five-year, $71 million
program on independent monitoring and evaluation. 27 Although the mission implemented
some recommendations from five of eight monitoring and evaluation reports produced as part
of the program, USAID OIG also found that the majority of the mission’s project activities had
not made use of information learned through the program. In addition, neither the contractor
implementing the program nor USAID had established a monitoring and
evaluation plan to ensure that ongoing development programs were aligned with relevant
project objectives of the mission.

In one of the broadest looks at USAID’s oversight of its Afghanistan programs, the
Government Accountability Office (GAO) reported that there were systematic weaknesses in

25SIGAR Audit 12-09, USAID Has Disbursed $9.5 Billion for Reconstruction and Funded Some Financial Audits
as Required, but Many Audits Face Significant Delays, Accountability Limitations, and Lack of Resources, April
2012 (reissued on May 2, 2012).
26USAID OIG, Review of USAID/Afghanistan’s Monitoring and Evaluation System (Report No. F-306-12-00 2-S)
September 26, 2012.
27USAID OIG, Audit of USAID/Pakistan’s Independent Monitoring and Evaluation Program [Revised] (G-391-13-
003-P) October 28, 2013.



SIGAR 14-46-TY                                                                                         Page 19
USAID’s oversight and monitoring of project and program performance. 28 For example, USAID
did not consistently follow its established performance management and evaluation
procedures for Afghanistan agriculture and water sector projects. Moreover, GAO found that
the USAID mission in Kabul was operating without a required performance plan.

In sum, while USAID has exercised due diligence in some cases to ensure proper oversight, it
has not done so in others. SIGAR is, however, sensitive to the fact that oversight in an
environment like Afghanistan is uniquely challenging. Without a doubt, one of the greatest
impediments to strong oversight is the problem of limited mobility due to insurgent violence.
As SIGAR has reported, it is likely that no more than 21 percent of Afghanistan will be
accessible to U.S. civilian oversight personnel by the end of the transition—a 47 percent
decrease since 2009.29 Recent examinations of Department of Defense projects
constructed in these inaccessible areas illuminate how significant this challenge is.

Last month, for example, SIGAR issued an inspection report on an Afghan National Army
base in Jawzjan province—Camp Monitor, built under contract with USFOR-A. 30 When SIGAR
inspectors visited the site, they found that the facility had, for the most part, been
constructed in accordance with contract requirements, with one notable exception. The
contractor had run out of funds and, therefore, stopped work before building a dining facility
at the site. As a result, the camp was unusable. In March 2013, USFOR-A told SIGAR
inspectors that action was underway to find a new contractor to build the dining facility, but
its efforts were hampered because the camp was in a location that would soon be
inaccessible to U.S. government contracting personnel. As a result, in November 2013, the
Combined Security Transition Command-Afghanistan (CSTC-A), the USFOR-A organization
responsible for managing construction of ANSF facilities, gave $1.2 million directly to the
Afghan Ministry of Defense to complete construction of Camp Monitor. At this point, CSTC-
A’s oversight of the project essentially ceased. Although CSTC-A documents indicated that
the NATO Training Mission-Afghanistan (NTM-A) would track the expenditure of this direct

28   GAO, Afghanistan: USAID Oversight of Assistance Funds and Programs (GAO-12-802T) June 6, 2012.
29SIGAR 14-4-SP, Oversight Access Inquiry Letter to Department of Defense, Department of State and U.S.
Agency for International Development, October 2013.
30 SIGAR 14-41-IP, Camp Monitor: Most Construction Appears to Have Met Contract Requirements, but It Is

Unclear if Facility Is Being Used as Intended, March 2014.



SIGAR 14-46-TY                                                                                        Page 20
assistance and the project’s progress, CSTC-A/NTM-A officials were unable to tell SIGAR the
status of the dining facility, when and if Afghan National Army personnel began occupying
the camp, or the number of personnel currently occupying it. A draft of SIGAR’s inspection
report contained a recommendation to the Commander, USFOR-A, to direct the Commanding
General, CSTC-A, to determine and report on the status of U.S. funds provided to the Afghan
government for construction of the dining facility at Camp Monitor and that such reporting
should continue until the facility is completed. In response, CSTC-A stated that once funds are
“donated” to the Afghan government, it may use those funds without further
coordination with the U.S. Department of Defense. 31

SIGAR strongly disagrees with the notion that once funds have been committed as direct
assistance to the Afghan government, the U.S. government’s stewardship over those funds
ends. While USAID has not done all it could to address significant weaknesses within the
ministries slated to receive direct USAID assistance, to its credit, it has also not espoused
this view that the Afghan government can use U.S. government funds freely and without
oversight. As SIGAR continues its examination of U.S. direct assistance to Afghanistan, it will
look to ensure that this perspective is shared more widely within the U.S. government.

Lesson Four: A Reconstruction Effort Must Have Clearly Articulated Goals and a Sound Way
to Measure Progress toward Those Goals

Taking a strategic approach to program implementation promotes transparency and helps
ensure that a program is based on a sound plan that can achieve results and reduce
potential risks to U.S. investments. Yet, while it is widely acknowledged that strategic
planning is a must, SIGAR has repeatedly found that it has often been ignored throughout
the Afghanistan reconstruction effort. For example, SIGAR has noted that the U.S.
government has never articulated a clear anti-corruption strategy in Afghanistan. In August
2010, for example, SIGAR reported that, even though U.S. agencies had been heavily
involved in Afghan reconstruction since 2002, the U.S. government did not begin developing


31Although CSTC-A did not concur with SIGAR’s recommendation, USFOR-A committed, in its response to
SIGAR’s draft inspection report, to track the status of construction at Camp Monitor and provide updates to
SIGAR. As a result, SIGAR deleted the recommendation from its final inspection report.



SIGAR 14-46-TY                                                                                          Page 21
an anti-corruption strategy for Afghanistan until 2009. 32 And, although a draft strategy was
substantially completed by the end of 2009, it had still not been approved by the State
Department by July 2010. As a result, as SIGAR reported, more than $50 billion in U.S.
assistance had been provided for reconstruction in Afghanistan without the benefit of a
comprehensive anti-corruption strategy.

SIGAR recommended in that 2010 report that the U.S. government approve and implement
the draft comprehensive anti-corruption strategy. However, last year, when SIGAR’s Office of
Special Projects followed up on the status of this recommendation, it found that the U.S.
anti-corruption activities in Afghanistan were still not guided by a comprehensive U.S.
strategy or related guidance that defines clear goals and objectives for U.S efforts to
strengthen the Afghan government’s capability to combat corruption and increase
accountability. 33 The Department of State had never finalized the draft 2010 U.S. anti-
corruption strategy for Afghanistan and, according to agency officials, the draft strategy and
its related implementation plan were no longer in effect.

SIGAR has also found that, even when nominal strategic plans exist, U.S. government
implementing agencies, including USAID, do not consistently articulate the goals they hope to
achieve with each reconstruction program or project and the metrics they intend to use to
assess whether those goals have been achieved.

For example, in July 2010, SIGAR reported that, while the United States had a stated policy
to support women’s rights and gender integration, it did not clarify how U.S.-funded activities
supported these goals. 34 Nor did the policy provide linkages between U.S.-funded activities
and Afghan goals and benchmarks detailed in its National Action Plan for Women of
Afghanistan, the Afghan government’s primary vehicle for promoting women’s rights and
participation in building Afghanistan.


32 SIGAR Audit 10-15, U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized

Comprehensive U.S. Anti-Corruption Strategy, August 2010.
33 SIGAR SP-13-9, U.S. Anti-Corruption Efforts: A Strategic Plan and Mechanisms to Track Progress Are Needed
in Fighting Corruption in Afghanistan, October 2013.
34 SIGAR Audit 10-13, Greater Coordination Needed in Meeting Congressional Directives to Address and Report

on the Needs of Afghan Women and Girls, July 2010.



SIGAR 14-46-TY                                                                                       Page 22
Similarly, in March 2011, SIGAR reported that, although the National Solidarity Program,
designed to build local governance by setting up community development councils and
training them to manage small-scale projects funded by block grants, had met or exceeded
most of its quantitative goals, it had not effectively measured progress toward its qualitative
objective of improving local governance in Afghanistan. 35 Metrics tracked, for instance,
outputs such as the number of communities mobilized and the number of projects funded.
But, it was not until more than seven years into the program that more qualitative and
meaningful metrics tied to the program’s core purpose were established, such as the
percentage of communities that recognize community development councils as legitimate
bodies; the percentage of women representatives on community development councils
involved in decision making; and the number of community development councils that
attempt to form linkages with government and non-government actors.

Finally, in October 2011, SIGAR reported that the U.S. Embassy in Kabul was not able to
determine how much progress had been made to date in building the capacity of the
Ministry of Agriculture, Irrigation, and Livestock because it did not have sufficient or
complete data for doing so. 36 Although some meaningful, outcome-oriented measures had
been defined, no effort had been made to collect the data needed to assess progress
against them. Moreover, SIGAR found that USAID’s evaluation efforts had not been
coordinated with other U.S. government agencies involved in strengthening the ministry,
most notably the U.S. Department of Agriculture. For example, while USAID’s program on
agricultural research and extension was the only program designated to provide
performance data on improving Afghan government agricultural and extension services, the
U.S. Department of Agriculture also had a program focused on the same goal. Failure to
consider all agencies’ efforts in this area ran counter to USAID’s guidance on performance
management, which recognizes that, while individual projects and activities produce specific
outcomes, it takes the combined effect of several projects to produce a sustainable impact.



35SIGAR Audit 11-08, Afghanistan’s National Solidarity Program Has Reached Thousands of Afghan
Communities, but Faces Challenges that Could Limit Outcomes, March 2011.
36 SIGAR Audit 12-01, Actions Needed to Better Assess and Coordinate Capacity-Building Efforts at the Ministry

of Agriculture, Irrigation, and Livestock, October 2011.



SIGAR 14-46-TY                                                                                         Page 23
USAID is certainly not alone in its tendency to emphasize outputs over outcomes. Outputs
are easier to measure and, therefore, present an expedient way to justify program
expenditures. But, they offer little meaningful information about whether a program is
working and worth the investment to begin with.

The importance of performance measurement was underscored most notably in
correspondence between SIGAR and USAID and the Departments of State and Defense last
year. In March 2013, SIGAR asked each of these three agencies to provide SIGAR with
information on what each considered to be the 10 most and 10 least successful of its
projects or programs for the reconstruction of Afghanistan, supplemented with explanations
of selection and evaluation criteria for the choices. 37 Unfortunately, while each agency
provided anecdotes of what it deemed successful programs and cited general improvements
within Afghanistan related to health, education, and other important areas, none could show
how any of its programs had directly contributed to these positive outcomes.

For example, in its joint response letter to SIGAR, USAID and the Department of State noted
that the proportion of the Afghan population within an hour’s walk of a health care facility
has risen from 9 percent in 2001 to more than 60 percent today. This statistic is, indeed,
impressive. However, it is not clear to what extent, if any, USAID and the State Department’s
efforts contributed to this improvement. Afghanistan has been slowly urbanizing for
decades, with estimates of 4.7 percent annual growth in urban populations in the 2010-
2015 period. So some part of the observed increase in the one hour’s walk parameter simply
reflects a demographic trend. Moreover, the indicator may also reflect the presence of more
direct or better-surfaced roads and paths, rather than programs to build health care facilities.
It simply is not clear and never will be without more robust performance measurement.



37See “SIGAR Asks State Department, Defense Department, and USAID to Identify 10 Best and 10 Worst
Projects in Afghanistan; Request Will Improve Evaluation of Afghan Reconstruction Efforts,” April 1, 2013;
“SIGAR Receives State Department-USAID and Department of Defense Response to Inquiry Requesting Lists of
10 Best and 10 Worst Reconstruction Projects in Afghanistan,” June 24, 2013; and “SIGAR Response to State
Department-USAID and Department of Defense List of 10 Best and 10 Worst Reconstruction Projects in
Afghanistan,” July 5, 2013. SIGAR News Releases, www.sigar.mil.




SIGAR 14-46-TY                                                                                     Page 24
Conclusion

Implementing, managing, and overseeing reconstruction programs in Afghanistan is
uniquely challenging. No government and no agency will do it perfectly. In many ways, USAID
has made substantial progress since it began its efforts following the U.S. military’s invasion
in 2001. However, there are additional steps that USAID can take to strengthen its
reconstruction programs. It can incorporate more realistic expectations of the Afghan
government’s ability to afford the costs of operating and sustaining projects into individual
project plans. It can be bolder in holding Afghan ministries accountable for addressing severe
problems as a condition for receiving direct assistance. 38 It can engage in more robust
financial oversight of its reconstruction regime. It can experiment with more meaningful
outcome measures. And it can be more forthright in providing complete information to both
Congress and the American people about its reconstruction activities in Afghanistan. 39

But, it is not up to USAID, alone, to bring greater integrity to the U.S. government’s
reconstruction effort in Afghanistan. Congress, too, has a role to play. It can continue to ask
the tough questions that this committee is asking today, and it can help articulate for USAID
and other agencies charged with rebuilding Afghanistan what it is that the U.S. government
hopes to achieve in Afghanistan in the years to come.




38
  Although USAID has withheld some funding due to the Afghan government’s failure to meet certain
conditions, such as withholding $30 million from the Afghan Reconstruction Trust Fund (ARTF) due to
inadequate progress on meeting certain Tokyo Mutual Accountability Framework benchmarks, these amounts
are small, compared to the $16.7 billion in Economic Support Fund monies committed for Afghanistan
reconstruction.
39 SIGAR has reported that USAID and the State Department did not fully disclose to Congress the risks
associated with providing direct assistance to the Afghan ministries. For example, while USAID notified
Congress in November 2012 that, with the “successful implementation” of risk mitigation strategies, the
Afghan ministries were qualified to manage direct assistance funds, it did not disclose the full extent of the
risks identified at each of the ministries or that over 90 percent of the mitigating measures identified in the
risk reviews had not been implemented. See SIGAR 14-32-AR, pp. 14-16 for further discussion.




SIGAR 14-46-TY                                                                                             Page 25
Finally, SIGAR can continue to provide strong oversight and, most importantly, constructive
recommendations for protecting U.S. taxpayer funds and improving the effectiveness and
efficiency of the reconstruction effort.

Thank you for the opportunity to testify today. I look forward to answering your questions.




SIGAR 14-46-TY                                                                          Page 26
Appendix I - SIGAR, GAO, and USAID OIG Reports on USAID’s Reconstruction
Efforts in Afghanistan

SIGAR
Performance Audits
    1. “Direct Assistance: USAID Has Taken Positive Action to Assess Afghan Ministries’
       Ability to Manage Donor Funds, but Concerns Remain,” Audit Report 14-32, January
       2014.

    2. “Afghanistan's Banking Sector: The Central Bank's Capacity to Regulate Commercial
       Banks Remains Weak,” Audit Report 14-16, January 2014.

    3. “Health Services in Afghanistan: USAID Continues Providing Millions of Dollars to the
       Ministry of Public Health despite the Risk of Misuse of Funds,” Audit Report 13-17,
       September 2013.

    4. “Stability in Key Areas (SIKA) Programs: After 16 Months and $47 Million Spent,
       USAID Had Not Met Essential Program Objectives,” Audit Report 13-16, July 2013.

    5. “Afghanistan Public Protection Force: Concerns Remain about Force’s Capabilities
       and Costs,” Audit Report 13-15, July 2013

    6. “Contracting with the Enemy: State and USAID Need Stronger Authority to Terminate
       Contracts When Enemy Affiliations Are Identified,” Audit Report 13-14, July 2013.

    7. “Health Services in Afghanistan: Two New USAID Funded Hospitals May Not Be
       Sustainable and Existing Hospitals Are Facing Shortages in Some Key Medical
       Positions,” Audit Report 13-9, April 2013.

    8. “Taxes: Afghan Government Has Levied Nearly a Billion Dollars in Business Taxes on
       Contractors Supporting U.S. Government Efforts in Afghanistan,” Audit Report 13-8,
       May 2013.

    9. “Afghanistan’s National Power Utility: Commercialization Efforts Challenged by
       Expiring Subsidy and Poor USFOR-A and USAID Project Management,” Audit Report
       13-7, April 2013.

    10. “Afghanistan's National Power Utility: $12.8 Million in DoD-Purchased Equipment Sits
        Unused, and USAID Paid a Contractor for Work Not Done,” Audit Report 13-2, December
        2012.

    11. “Fiscal Year 2011 Afghanistan Infrastructure Fund Projects Are behind Schedule and
       Lack Adequate Sustainment Plans,” Audit Report 12-12, July 2012.




SIGAR 14-46-TY                                                                            Page 27
    12. “Progress Made Toward Increased Stability under USAID's Afghanistan Stabilization
        Initiative-East Program but Transition to Long Term Development Efforts Not Yet
        Achieved,” Audit Report 12-11, June 2012.

    13. “Increases in Security Costs Are Likely under the Afghan Public Protection Force;
        USAID Needs to Monitor Costs and Ensure Unlicensed Security Providers Are Not
        Used,” Audit Report 12-10, June 2012.

    14. “USAID Has Disbursed $9.5 Billion for Reconstruction and Funded Some Financial
        Audits as Required, But Many Audits Face Significant Delays, Accountability
        Limitations, and Lack of Resources,” Audit Report 12-09, April 2012.

    15. “USAID Spent Almost $400 Million on an Afghan Stabilization Project despite
       Uncertain Results, but Has Taken Steps to Better Assess Similar Efforts,” Audit
       Report 12-08, April 2012.

    16. “Afghan First Initiative Has Placed Work with Afghan Companies, but Is Affected by
       Inconsistent Contract Solicitation and Vetting, and Employment Data Is Limited,”
       Audit Report 12-06, January 2012.

    17. “Actions Needed to Better Assess and Coordinate Capacity-Building Efforts at the
        Ministry of Agriculture, Irrigation, and Livestock,” Audit Report 12-01, October 2011.

    18. “The World Bank and the Afghan Government Have Established Mechanisms to
        Monitor and Account for Funds Contributed to the Afghanistan Reconstruction Trust
        Fund, but Some Limitations and Challenges Should Be Addressed,” Audit Report 11-
        14, July 2011.

    19. “Limited Interagency Coordination and Insufficient Controls over U.S. Funds in
        Afghanistan Hamper U.S. Efforts to Develop the Afghan Financial Sector and
        Safeguard U.S. Cash,” Audit Report 11-13, July 2011.

    20. “USAID's Kabul Community Development Program Largely Met the Agreement's
        Terms, but Progress Toward Long-Term Goals Needs to be Better Tracked,” Audit
        Report 11-11, June 2011.

    21. “Afghanistan's National Solidarity Program Has Reached Thousands of Afghan
        Communities, but Faces Challenges that Could Limit Outcomes,” Audit Report 11-08,
        March 2011.

    22. “Actions Needed to Mitigate Inconsistencies in and Lack of Safeguards over U.S.
        Salary Support to Afghan Government Employees and Technical Advisors,” Audit
        Report 11-05, October 2010.

    23. “Weakness in Reporting and Coordination of Development Assistance and Lack of
       Provincial Capacity Pose Risks to U.S. Strategy in Nangarhar Province,” Audit Report
       11-01, October 2010.




SIGAR 14-46-TY                                                                           Page 28
    24. “Greater Coordination Needed in Meeting Congressional Directives To Address and
        Report on the Needs of Afghan Women and Girls,” Audit Report 10-13, July 2010.

    25. “Afghanistan's Control and Audit Office Requires Operational and Budgetary Independence,
        Enhanced Authority, and Focused International Assistance to Effectively Prevent and Detect
        Corruption,” Audit Report 10-08

    26. “Contract Delays Led to Cost Overruns for the Kabul Power Plant and Sustainability
        Remains a Key Challenge,” Audit Report 10-06, January 2010.

    27. “Afghanistan Energy Supply has Increased but an Updated Master Plan is Needed and
        Delays and Sustainability Concerns Remain,” Audit Report 10-04, January 2010.

    28. “Afghanistan's High Office of Oversight Needs Significantly Strengthened Authority,
        Independence, and Donor Support to Become an Effective Anti-Corruption
        Institution,” Audit Report 10-02, December 2009.

    29. “Strategy and Resources Needed to Sustain Afghan Electoral Capacity,” Audit Report
        09-06, September 2009.

    30. “A Better Management Information System Is Needed to Promote Information
        Sharing, Effective Planning, and Coordination of Afghanistan Reconstruction
        Activities,” Audit Report 09-03, July 2009.

Inspections
    1. “Balkh Education Facility: Building Remains Unfinished and Unsafe to Occupy after
       Nearly 5 Years,” Inspection Report 14-24, January 2014.

    2. “Gardez Hospital: After almost 2 Years, Construction Not Yet Completed because of
       Poor Contractor Performance, and Overpayments to the Contractor Need to Be
       Addressed by USAID,” Inspection Report 14-6, October 2013.

Financial Audits
    1. “USAID’s Strategic Provincial Roads Program: Audit of Costs Incurred by International
       Relief and Development, Inc.,” Financial Audit Report 14-39, February 2014.

    2. “USAID’s Health Service Support Project: Audit of Costs Incurred by Jhpiego
       Corporation,” Financial Audit Report 14-34, February 2014.

    3. “USAID’s Food Insecurity Response for Urban Populations Program: Audit of Costs
       Incurred by CARE International,” Financial Audit Report 14-29, January 2014.

    4. “USAID’s Food Insecurity Response for Urban Populations Program: Audit of Costs
       Incurred by World Vision, Inc.,” Financial Audit Report 14-23, January 2014.

    5. “USAID’s Community Development Program: Audit of Costs Incurred by Central Asia
       Development Group, Inc.,” Financial Audit Report 14-20, January 2014.



SIGAR 14-46-TY                                                                              Page 29
    6. “USAID’s Community Development Program: Audit of Costs Incurred by Mercy Corps
       ,” Financial Audit Report 14-19, January 2014.

    7. “USAID’s Initiative to Promote Afghan Civil Society Project: Audit of Costs Incurred by
       Counterpart International, Inc.,” Financial Audit Report 14-15, January 2014.

    8. “USAID’s Rural Finance and Cooperative Development Project: Audit of Costs
       Incurred by World Council of Credit Unions, Inc.,” Financial Audit Report 14-14,
       December 2013.

    9. “USAID’s Alternative Livelihoods Program–Eastern Region: Audit of Costs Incurred by
       Development Alternatives, Inc.,” Financial Audit Report 13-10, July 2013.

    10. “USAID’s Alternative Development Project South/West: Audit of Costs Incurred by
        Tetra Tech ARD SIGAR Financial,” Financial Audit Report 13-9, July 2013.

    11. “USAID's Human Resources and Logistical Support Program: Audit of Costs Incurred
        by International Relief and Development, Inc.,” Financial Audit Report 13-8, July
        2013.

    12. “USAID’s Program to Support the Loya Jirga and Election Process in Afghanistan:
        Audit of Costs Incurred by The Asia Foundation,” Financial Audit Report 13-5, June
        2013.

    13. “USAID’s Technical Support to the Central and Provincial Ministry of Public Health
        Project: Audit of Costs Incurred by Management Sciences for Health,” Financial Audit
        Report 13-4, June 2013.

    14. “Audit of Costs Incurred by Futures Group International, LLC in Support of USAID’s
        Project for Expanding Access to Private Sector Health Products and Services in
        Afghanistan ,” Financial Audit Report 13-3, June 2013.

    15. “Audit of Costs Incurred by Cardno Emerging Markets Group, LTD. in Support of
        USAID’s Afghanistan State- Owned Enterprises Privatization, Excess Land
        Privatization, and Land Titling Project ,” Financial Audit Report 13-2, June 2013.

    16. “Audit of Costs Incurred by Chemonics International, Inc. in Support of USAID's
        Alternative Livelihoods Program - Southern Region,” Financial Audit Report 13-1,
        June 2013.

Special Projects
    1. “Inquiry Letter: Kajaki Unit 2 Project,” Special Project 14-40, March 2014.

    2. “Geospatial Fact Sheet: Oversight Access for Selected U.S. Army Corps of Engineers
       Projects and the Kajaki Dam Project,” Special Project 14-28, January 2014.

    3. “USAID Assistance to Afghanistan Reconstruction: $13.3 Billion Obligated Between
       2002 and 2013,” Special Project 14-27, January 2014.


SIGAR 14-46-TY                                                                            Page 30
    4. “Kajaki Dam Direct Assistance-Oversight Provisions,” Special Project Alert Letter,
       December 2013.

    5. “Oversight Access Inquiry Letter to Department of Defense, Department of State and
       U.S. Agency for International Development,” Special Project 14-4, October 2013.

    6. “U.S. Anti-Corruption Efforts: A Strategic Plan and Mechanisms To Track Progress Are
       Needed In Fighting Corruption in Afghanistan,” Special Project 13-9, September
       2013.

    7. “SIGAR Alert Letter warns of serious problems caused by failure of prime contractors
       to pay Afghan subcontractors,” Special Project 13-4, June 2013.



USAID OIG
Audits
         1. “Audit of USAID/Afghanistan's Financial Access for Investing in the Development
            of Afghanistan Project ,” Audit Report F-306-14-002-P, March 2014.

         2. “Audit of USAID/Afghanistan's Management Controls Over Overtime
            Compensation,” Audit Report F-306-14-001-P, March 2014.

         3. “Audit of USAID/Afghanistan's Kandahar Helmand Power Project,” Audit Report F-
            306-13-001-P, September 2013.

         4. “Audit of USAID/Afghanistan's Use of Third-Country National Employees,” Audit
            Report F-306-13-002-P, August 2013.

         5. “Audit of USAID/Afghanistan's Incentives Driving Economic Alternatives for the
            North, East, and West Program,” Audit Report F-306-12-004-P, June 2012.

         6. “Audit of USAID/Afghanistan's Internal Controls in the Administration of the
            Involuntary Separate Maintenance Allowance,” Audit Report F-306-12-003-P,
            June 2012.

         7. “Audit of USAID/Afghanistan's Skills Training For Afghan Youth Project,” Audit
            Report F-306-12-002-P, February 2012.

         8. “Audit of USAID/Afghanistan's Afghanistan Stabilization Initiative For the Southern
            Region,” Audit Report F-306-12-001-P, November 2011.

         9. “Audit of USAID/Afghanistan's On-budget Funding Assistance to the Ministry of
            Public Health in Support of the Partnership Contracts for Health Services
            Program,” Audit Report F-306-11-004-P, September 2011.




SIGAR 14-46-TY                                                                           Page 31
        10. “Audit of USAID/Afghanistan's Support to The Electoral Process (STEP) and
            Support for Increased Electoral Participation In Afghanistan (IEP) Programs,” Audit
            Report F-306-11-003-P, June 2011.

        11. “Audit of USAID/Afghanistan's Construction of Health and Education Facilities
            Program,” Audit Report F-306-11-002-P, March 2011.

        12. “Audit of USAID/Afghanistan's Agriculture, Water, and Technology Transfer
            (AWATT) Program,” Audit Report F-306-11-001-P, February 2011.

        13. “Audit of USAID/Afghanistan's Support to the American University of Afghanistan,”
            Audit Report 5-306-11-002-P, November 2010.

        14. “Audit of USAID/Afghanistan's Partnership for Advancing Community-Based
            Education in Afghanistan (PACE-A) Program,” Audit Report 5-306-11-001-P,
            October 2010.

        15. “Audit of USAID/Afghanistan's Alternative Development Program Expansion-South
            West,” Audit Report 5-306-10-011-P, July 2010.

        16. “Audit of USAID/Afghanistan's Oversight of Private Security Contractors in
            Afghanistan,” Audit Report 5-306-10-009-P, May 2010.

        17. “Audit of USAID/Afghanistan's Afghanistan Vouchers for Increased Productive
            Agriculture (AVIPA) Program,” Audit Report 5-306-10-008-P, April 2010.

        18. “Audit of USAID/Afghanistan's Human Resources and Logistical Support
            Program,” Audit Report 5-306-10-007-P, March 2010.

        19. “Audit of USAID/Afghanistan's Building Education Support Systems for Teachers
            Project,” Audit Report 5-306-10-006-P, January 2010.

        20. “Audit of USAID/Afghanistan's Afghan Civilian Assistance Program,” Audit Report
            5-306-10-004-P, December 2009.

        21. “Audit of USAID/Afghanistan's Power Sector Activities Under Its Afghanistan
            Infrastructure Rehabilitation Program,” Audit Report 5-306-10-002-P, November
            2009.

        22. “Audit of USAID/Afghanistan's Land Titling and Economic Restructuring in
            Afghanistan Project,” Audit Report 5-306-09-004-P, June 2009.

        23. “Audit of USAID/Afghanistan's Local Governance and Community Development
            Project in Southern and Eastern Regions of Afghanistan,” Audit Report 5-306-09-
            003-P, May 2009.

        24. “Audit of USAID/Afghanistan's Higher Education Project,” Audit Report 5-306-09-
            002-p, December 2008.



SIGAR 14-46-TY                                                                           Page 32
        25. “Audit of USAID/Afghanistan's Capacity Development Program,” Audit Report 5-
            306-08-012-P, September 2008.

        26. “Audit of USAID/Afghanistan's Accelerating Sustainable Agriculture Program,”
            Audit Report 5-306-08-009-P, August 2008.

        27. “Audit of USAID/Afghanistan's Small and Medium Enterprise Development
            Activity,” Audit Report 5-306-08-006-P, June 2008.

        28. “Audit of USAID/Afghanistan's Alternative Development Program Southern,” Audit
            Report 5-306-08-003-P, March 2008.

        29. “Audit of USAID/Afghanistan's Agriculture, Rural Investment and Enterprise
            Strengthening Program,” Audit Report 5-306-08-001-P, January 2008.

        30. “Audit of Selected Follow-On Activities Under USAID/Afghanistan's Economic
            Program,” Audit Report 5-306-07-009-P, August 2007.

        31. “Audit of USAID/Afghanistan's Urban Water and Sanitation Program,” Audit
            Report 5-306-07-006-P, June 2007.

        32. “Audit of Critical Power Sector Activities Under USAID/Afghanistan's Rehabilitation
            of Economic Facilities and Services (REFS) Program,” Audit Report 5-306-07-004-
            P, May 2007.

        33. “Audit of USAID/Afghanistan's Alternative Livelihoods Program-Eastern Region,”
            Audit Report 5-306-07-002-P, February 2007.

        34. “Audit of USAID/Afghanistan's School and Health Clinic Reconstruction Activities,”
            Audit Report 5-306-06-008-P, August 2006.

        35. “Audit of USAID/Afghanistan's Rural Expansion of Afghanistan's Community-
            Based Healthcare (REACH) Program,” Audit Report 5-306-06-007-P, August
            2006.

        36. “Audit of USAID/Afghanistan's Reconstruction of the Kandahar-Herat Highway
            Under the Rehabilitation of Economic Facilities and Services Program,” Audit
            Report 5-306-06-005-P, May 2006.

        37. “Audit of USAID/Afghanistan's Rebuilding Agricultural Markets Program,” Audit
            Report 5-306-06-002-P, March 2006.

        38. “Audit of USAID/Afghanistan's Cashiering Operations,” Audit Report 5-306-06-
            001-P, January 2006.

        39. “Audit of Funds Earmarked by Congress to Provide Assistance for Displaced
            Persons in Afghanistan,” Audit Report 9-306-06-004-P, December 2005.




SIGAR 14-46-TY                                                                           Page 33
          40. “Audit of USAID/Afghanistan's Primary Education Program,” Audit Report 5-306-
              05-005-P, April 2005.

          41. “Audit of USAID/Afghanistan's School and Clinic Reconstruction Program,” Audit
              Report 5-306-05-003-P, March 2005.

          42. “Audit of the Kabul to Kandahar Highway Reconstruction Activities Financed by
              USAID/Afghanistan's Rehabilitation of Economic Facilities and Services Program,”
              Audit Report 5-306-04-006-P, September 2004.

          43. “Audit of the Sustainable Economic Policy and Institutional Reform Support
              Program at USAID/Afghanistan,” Audit Report 5-306-04-005-P, August 2004.

Reviews

    1. “Review of USAID/Afghanistan's Electoral Assistance Program,” Review F-306-14-
       001-S, February 2014.

    2. “USAID/Afghanistan’s Performance Based Governors’ Fund,” Review F-306-13-001-
       S, October 2012.

    3. “Review of USAID/Afghanistan’s Monitoring and Evaluation System,” Review F-306-
       12-002-S, September 2012.

    4. “Review of Responses to Internal Audit Findings on the Local Governance and
       Community Development Project,” Review F-306-12-001-S, December 2011.

    5. “Review of USAID/Afghanistan's Afghan Civilian Assistance Program,” Review F-306-
       11-005-S, August 2011.

    6. “Review of USAID/Afghanistan's Portion of the Embassy Air Program,” Review F-306-
       11-004-S, June 2011.

    7. “Review of USAID/Afghanistan's Bank Supervision Assistance Activities and the Kabul
       Bank Crisis,” Review F-306-11-003-S, March 2011.

    8. “Review of Cash Disbursement Practices Employed by Selected USAID/Afghanistan
       Contractors and Grantees,” Review F-306-11-002-S, March 2011.

    9. “Review of USAID/Afghanistan's Ministerial Assessment Process,” Review F-306-11-
       001-S, November 2010.

    10. “Review of Security Costs Charged to USAID Projects in Afghanistan,” Review 5-306-
        10-002-S, September 2010.

    11. “Review of School and Health Clinic Buildings Completed Under the Schools and
        Clinics Construction and Refurbishment Program,” Review 5-306-10-002-O, June
        2010.



SIGAR 14-46-TY                                                                          Page 34
GAO
    1. “Afghanistan: Key Oversight Issues for USAID Development Efforts,” GAO-14-448T,
       March 2014.

    2. “Contingency Contracting: State and USAID Made Progress Assessing and
       Implementing Changes, but Further Actions Needed,” GAO-14-229, February 2014.

    3. “Contingency Contracting: State and USAID Made Progress Assessing and
       Implementing Changes, but Further Actions Needed,” GAO-14-229, February 2014.

    4. “Afghanistan Development: Agencies Could Benefit from a Shared and More
       Comprehensive Database on U.S. Efforts,” GAO-13-34, December 2012.

    5. “Iraq and Afghanistan: Agencies Are Taking Steps to Improve Data on Contracting but
       Need to Standardize Reporting,” GAO-12-977R, September 2012.

    6. “Contingency Contracting: Agency Actions to Address Recommendations by the
       Commission on Wartime Contracting in Iraq and Afghanistan,” GAO-12-854R, August
       2012.

    7. “Afghanistan: USAID Oversight of Assistance Funds and Programs,” GAO-12-802T,
       June 2012.

    8. “Afghanistan Governance: Performance-Data Gaps Hinder Overall Assessment of U.S.
       Efforts to Build Financial Management Capacity,” GAO-11-907, September 2011.

    9. “Iraq and Afghanistan: DOD, State, and USAID Cannot Fully Account for Contracts,
       Assistance Instruments, and Associated Personnel,” GAO-11-886, September 2011.

    10. “Afghanistan: Actions Needed to Improve Accountability of U.S. Assistance to
        Afghanistan Government,” GAO-11-710, July 2011.

    11. “Afghanistan: U.S. Efforts to Vet Non-U.S. Vendors Need Improvement,” GAO-11-355,
        June 2011.

    12. “Operational Contract Support: Actions Needed to Address Contract Oversight and
        Vetting of Non-U.S. Vendors in Afghanistan,” GAO-11-771T, June 2011.

    13. “Contingency Contracting: Observations on Actions Needed to Address Systemic
        Challenges,” GAO-11-580, April 2011.

    14. “Afghanistan Development: U.S. Efforts to Support Afghan Water Sector Increasing,
        but Improvements Needed in Planning and Coordination,” GAO-11-138, November
        2010.




SIGAR 14-46-TY                                                                         Page 35
    15. “Iraq and Afghanistan: DOD, State, and USAID Face Continued Challenges in
        Tracking Contracts, Assistance Instruments, and Associated Personnel,” GAO-11-1,
        October 2010.

    16. “Afghanistan Development: USAID Continues to Face Challenges in Managing and
        Overseeing U.S. Development Assistance Programs,” GAO-10-932T, July 2010.

    17. “Afghanistan Development: Enhancements to Performance Management and
        Evaluation Efforts Could Improve USAID's Agricultural Programs,” GAO-10-368, July
        2010.

    18. “Contingency Contracting: Improvements Needed in Management of Contractors
        Supporting Contract and Grant Administration in Iraq and Afghanistan,” GAO-10-357,
        April 2010.

    19. “Iraq and Afghanistan: Agencies Face Challenges in Tracking Contracts, Grants,
        Cooperative Agreements, and Associated Personnel,” GAO-10-509T, March 2010.

    20. “Contingency Contracting: Further Improvements Needed in Agency Tracking of
        Contractor Personnel and Contracts in Iraq and Afghanistan,” GAO-10-187,
        November 2009.

    21. “Contingency Contracting: DOD, State, and USAID Continue to Face Challenges in
        Tracking Contractor Personnel and Contracts in Iraq and Afghanistan,” GAO-10-1,
        October 2009.

    22. “Military Operations: Actions Needed to Improve Oversight and Interagency
        Coordination for the Commander's Emergency Response Program in Afghanistan,”
        GAO-09-615, May 2009.

    23. “Contingency Contracting: DOD, State, and USAID Are Taking Actions to Track
        Contracts and Contractor Personnel in Iraq and Afghanistan,” GAO-09-538T, April
        2009.

    24. “Afghanistan: U.S.- and Internationally-Funded Roads (GAO-09-626SP), an E-
        supplement to GAO-09-473SP,” GAO-09-626SP, April 2009.

    25. “International Affairs: Provincial Reconstruction Teams in Afghanistan and Iraq,” GAO-
        09-86R, October 2008.

    26. “Afghanistan Reconstruction: Progress Made in Constructing Roads, but
        Assessments for Determining Impact and a Sustainable Maintenance Program Are
        Needed,” GAO-08-689, July 2008.

    27. “Securing, Stabilizing, and Reconstructing Afghanistan: Key Issues for Congressional
        Oversight,” GAO-07-801SP, May 2007.

    28. “Afghanistan Drug Control: Despite Improved Efforts, Deteriorating Security
        Threatens Success of U.S. Goals,” GAO-07-78, November 2006.


SIGAR 14-46-TY                                                                          Page 36
    29. “Afghanistan Reconstruction: Despite Some Progress, Deteriorating Security and
        Other Obstacles Continue to Threaten Achievement of U.S. Goals,” GAO-05-742, July
        2005.

    30. “Afghanistan Reconstruction: Deteriorating Security and Limited Resources Have
        Impeded Progress; Improvements in U.S. Strategy Needed,” GAO-04-403, June 2004.




SIGAR 14-46-TY                                                                      Page 37
